CERTIFICATE OF COMPLIANCE
No. _ __

Respect Washington,
Petitioner

v.
Burien Communities for Inclusion, et al. ,
Respondents.

As required by Supreme Court Rule 33.l(b), I certify that the Petition for
Writ of Certiorari contains 5944 words, excluding the parts of the Petition for Writ
of Certiorari that are exempted by Supreme Court Rule 33.1(b).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 7, 2020.

Richard M. Stephens

